No. 19-1115

 

IN THE

Supreme Court of the United States

AMERICAN BANKERS ASSOCIATION,
Petitioner,
Vv.

NATIONAL CREDIT UNION ADMINISTRATION,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the District
of Columbia Circuit

BRIEF OF THE NATIONAL RIGHT TO WORK
LEGAL DEFENSE FOUNDATION, INC. AS
AMICUS CURIAE SUPPORTING PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,610 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 10, 2020.

 

Wilson-Epes PYinting Co., Inc.
